No. 20-659

 

IN THE

Supreme Court of the United States

LARRY THOMPSON,

Petitioner,
Vv.

POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.

On Writ of Certiorari to the United States Court of
Appeals for the Second Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,956 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 15, 2021.

 

Colin Casey Wogan
Wilson-Epes Printing Co., Inc.
